No. 19-742

 

 

In THE
Supreme Court of the Anited States

JAMES BAILEY-SNYDER,
Petitioner,
Vv.

UNITED STATES,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

BRIEF OF AMICI CURIAE PROFESSORS AND
PRACTITIONERS OF PSYCHIATRY,
PSYCHOLOGY, AND MEDICINE IN SUPPORT
OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,189 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 8, 2020.

Colin Casey i

Wilson-Epes Printing Co., Inc.
